     U. S. DEPARTMENT OF LABOR{PRIVATE }
   EMPLOYMENT STANDARDS ADMINISTRATION




LONGSHORE AND HARBOR WORKERS’
 COMPENSATION ACT SPECIAL FUND
     FINANCIAL STATEMENTS
       SEPTEMBER 30, 2000




                      March 2001

   Office of Management, Administration and Planning
            Division of Financial Management
                                   LONGSHORE AND HARBOR WORKERS'
                                    COMPENSATION ACT SPECIAL FUND

                                            TABLE OF CONTENTS



                                                                    PAGE

ACRONYMS                                                                      ii

OVERVIEW OF THE REPORTING ENTITY

 Mission and Organizational Structure                                I    -   1
 Financial Highlights                                                I    -   1
 Performance Goals and Results                                       I    -   1
 Limitations of the Financial Statements                             I    -   2

FINANCIAL STATEMENTS

 Balance Sheet                                                      II    -   1
 Statement of Net Cost                                              II    -   2
 Statement of Changes in Net Position                               II    -   3
 Statement of Budgetary Resources                                   II    -   4
 Statement of Financing                                             II    -   5

NOTES TO FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                III   -   1
 Note 2 – Funds with U.S. Treasury                                  III   -   4
 Note 3 - Investments                                               III   -   4
 Note 4 - Accounts Receivable, Net                                  III   -   5
 Note 5 - Other Liabilities                                         III   -   5
 Note 6 - Related Party Transactions                                III   -   6
 Note 7 – Reconciliation to the Budget                              III   -   6
 Note 8 – Contingencies and Commitments                             III   -   6




                                                       i
                                 LONGSHORE AND HARBOR WORKERS'
                                  COMPENSATION ACT SPECIAL FUND

                                                  ACRONYMS




CFO            Chief Financial Officer

DCCA           District of Columbia Workmen’s Compensation Act Special Fund

DLHWCDivision of Longshore and Harbor Workers’ Compensation

DOL            Department of Labor

ESA            Employment Standards Administration

FASAB          Federal Accounting Standards Advisory Board

FMFIA          Federal Managers' Financial Integrity Act

FUND           Longshore and Harbor Workers' Compensation Act Special Fund

FY             Fiscal Year

JFMIP          Joint Financial Management Improvement Project

LCMS           Longshore Case Management System

LHWCP          Longshore and Harbor Workers’ Compensation Program

OCFO           Office of the Chief Financial Officer

OMB            Office of Management and Budget

OWCP           Office of Workers' Compensation Programs




                                                       ii
     U. S. DEPARTMENT OF LABOR

EMPLOYMENT STANDARDS ADMINISTRATION




           SECTION I

      OVERVIEW OF THE
      REPORTING ENTITY




           Fiscal Year 2000
          Financial Statements
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                    OVERVIEW OF THE REPORTING ENTITY
                                           SEPTEMBER 30, 2000


MISSION AND ORGANIZATIONAL STRUCTURE

The Longshore and Harbor Workers’ program mission is to effectively administer a program of compensation and
medical benefits to covered workers who are injured on the job or suffer from occupational disease.

The reporting entity is the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). Organizationally
the Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation (DLHWC) has
direct responsibility for administration of the Fund. The Fund supports the program mission by providing
compensation, and in certain cases, medical care payments to employees disabled from injuries which occurred on
the navigable waters of the United States, or in adjoining areas used for loading, unloading, repairing, or building a
vessel. The Fund also extends benefits to dependents if any injury resulted in the employee's death.

Administrative services for operating the Fund are provided by the DLHWC through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying statements.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation
cases is paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment.
Appropriated funding for 10(h) is not reflected in the accompanying financial statements.

FINANCIAL HIGHLIGHTS

The majority of revenue of the Fund ($132,300,020) is generated through annual recurring assessments paid by self-
insured employers and insurance carriers. During FY 2000, substantial recoveries were made for the Fund due to
activities involving audits of Forms LS-513, Report of Payments (used in the calculation of the annual assessment),
and negotiation/collection of past due assessments. Equally important, the audits have uncovered common
reporting errors and other record-keeping mistakes which, when discovered, are being eliminated. The on-going
audit program recovered $51,276 in FY 2000 for the Fund. These recoveries have and will continue to reduce carrier
assessments.

Investment income for the Fund was $2,457,542 for FY 2000. The average interest rate earned during FY 2000 was
5.49 percent. Total expenditures for FY 2000 were $129,452,878, while expenses of the Fund remained relatively stable.


PERFORMANCE GOALS AND RESULTS

The DLHWC supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC program supports Outcome Goal
2.2 – To Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits are
protected and that employers administer benefit programs in an appropriate way. The Longshore program assists in
meeting this outcome goal.




                                                         I-1
                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                    OVERVIEW OF THE REPORTING ENTITY
                                           SEPTEMBER 30, 2000


PERFORMANCE GOALS AND RESULTS - Continued

The Longshore program also supports ESA ‘s Strategic Goal 2. This goal simply stated is to secure public
confidence through excellence in the management and delivery of ESA’s programs and services. The Longshore
program supports this ESA strategic goal by subscribing to ESA’s Outcome Goal 2.4. This outcome goal is to foster
organizational excellence and increase collaboration. In order to accomplish this outcome Longshore has
established the following performance goal for FY 2000:

         Reduce the average time required to reach a Longshore and Harbor Worker’s Compensation Program
         case resolution in cases with disputed issues when measured against the baseline. In FY 2000, complete
         system programming for entering and generating goal-related data and establish a performance baseline
         after data analysis.

In FY 2000 this goal was substantially met. System programming for entering and generating goal-related data was
completed and data collection was started. However, goal refinement at mid-year required extending the data
collection period to a full year to ensure an inclusive baseline. The target for establishing a baseline is now May
2001.

The Longshore and Harbor Workers’ Compensation Act provides medical benefits, compensation for lost-wages and
rehabilitation services for job-related injuries, diseases or death of private-sector workers in certain maritime and
related employment. Generally, benefits are paid directly from private funds by an authorized self-insured employer
or through an authorized insurance carrier. Cases meeting the requirements of the Longshore and Harbor Workers’
Compensation statute are paid from the Fund comprised primarily of employer contributions (assessments) and
administered by the DLHWC. In FY 2000, 6,420 workers (customers) received compensation benefits from the Fund.


LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations of the financial statements are a required part of the accompanying overview.

         -   The financial statements have been prepared to report the financial position and results of operations of
             the entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with
             the formats prescribed by OMB, the statements are different from the financial reports used to monitor
             and control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of a sovereign entity,
             that liabilities cannot be liquidated without the enactment of an appropriation, and that the payment of
             all liabilities other than for contracts can be abrogated by the sovereign entity.




                                                         I-2
     U. S. DEPARTMENT OF LABOR

EMPLOYMENT STANDARDS ADMINISTRATION




           SECTION II

   FINANCIAL STATEMENTS




           Fiscal Year 2000
          Financial Statements
                                      LONGSHORE AND HARBOR WORKERS’
                                       COMPENSATION ACT SPECIAL FUND

                                              BALANCE SHEET
                                          AS OF SEPTEMBER 30, 2000



ASSETS

  Intragovernmental assets
    Funds with U.S. Treasury (Note 2)                                  $      450,598
    Investments (Note 3)                                                   58,378,978

  Total intragovernmental assets                                           58,829,576

  Accounts receivable, net (Note 4)                                         1,226,777

Total Assets                                                           $ 60,056,353


LIABILITIES AND NET POSITION

Liabilities
  Accrued benefits payable                                             $    1,284,834
  Deferred revenue                                                         33,170,925
  Other liabilities (Note 5)                                                1,939,101

Total liabilities                                                          36,394,860

Net position
 Cumulative results of operations                                          23,661,493

Total Liabilities and Net Position                                     $ 60,056,353




The accompanying notes are an integral part of these statements.

                                                       II - 1
                                   LONGSHORE AND HARBOR WORKERS’
                                    COMPENSATION ACT SPECIAL FUND

                                        STATEMENT OF NET COST
                                 FOR THE YEAR ENDED SEPTEMBER 30, 2000



SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                                $ 119,537,494
 Wage increase compensation, Section 10(h)                                   2,470,725
 Compensation payment for self-insurer in default, Section 18(b)             4,780,069
 Rehabilitation services 39 (c)                                              2,498,457
 Rehabilitation maintenance, Section 8(g)                                       25,073
 Medical services, Section 7(e)                                                    934
 Disbursement – bankrupt self-insured employers                                140,126

Net cost of operations                                                   $ 129,452,878




The accompanying notes are an integral part of these statements.

                                                       II - 2
                                     LONGSHORE AND HARBOR WORKERS’
                                      COMPENSATION ACT SPECIAL FUND

                                    STATEMENT OF CHANGES IN NET POSITION
                                    FOR THE YEAR ENDED SEPTEMBER 30, 2000



CHANGE IN NET POSITION

Net cost of operations                                                      $ (129,452,878)

Net financing sources
 Non-exchange revenue
 Assessments                                                                    132,300,020
 Interest                                                                         2,457,542
    Total                                                                       134,757,562

  Transfers-out (Note 6)                                                         (1,740,000)

Total net financing sources                                                     133,017,562

  Net results of operations                                                       3,564,684

Net position, beginning of period                                                20,096,809

Net position, end of period                                                 $    23,661,493




The accompanying notes are an integral part of these statements.

                                                       II - 3
                                      LONGSHORE AND HARBOR WORKERS’
                                       COMPENSATION ACT SPECIAL FUND

                                  STATEMENT OF BUDGETARY RESOURCES
                                 FOR THE YEAR ENDED SEPTEMBER 30, 2000



BUDGETARY RESOURCES (Note 7)

  Budgetary authority                                                    $ 136,239,448
  Unobligated balances, beginning                                           52,196,458

Total budgetary resources                                                $ 188,435,906


STATUS OF BUDGETARY RESOURCES

  Obligations incurred (Note 7)                                          $ 131,382,692
  Unobligated balances available                                             1,397,519
  Unobligated balances not available                                        55,655,695

Total status of budgetary resources                                      $ 188,435,906


OUTLAYS (Note 7)

  Obligations incurred                                                   $ 131,382,692
  Obligated balance, net, beginning                                            909,732
  Less obligated balance, net, ending                                       (1,143,865)

Total outlays                                                            $ 131,148,559




The accompanying notes are an integral part of these statements.

                                                       II - 4
                                   LONGSHORE AND HARBOR WORKERS’
                                    COMPENSATION ACT SPECIAL FUND

                                       STATEMENT OF FINANCING
                                 FOR THE YEAR ENDED SEPTEMBER 30, 2000



OBLIGATIONS AND NON-BUDGETARY RESOURCES

  Obligations incurred                                                   $ 131,382,692
  Transfers, net                                                            (1,740,000)

Total obligations as adjusted and non-budgetary resources                 129,642,692


COSTS OF OPERATIONS NOT CONSUMING RESOURCES

  Benefit overpayments                                                       (330,782)

Total costs of operations not consuming resources                            (330,782)

FINANICING SOURCES YET TO BE PROVIDED                                         140,968


Net cost of operations                                                   $ 129,452,878




The accompanying notes are an integral part of these statements.

                                                      II – 5
     U. S. DEPARTMENT OF LABOR

EMPLOYMENT STANDARDS ADMINISTRATION




          SECTION III

        NOTES TO THE
   FINANCIAL STATEMENTS




           Fiscal Year 2000
          Financial Statements
                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                    NOTES TO THE FINANCIAL STATEMENTS
                                      For The Year Ended September 30, 2000


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Longshore and Harbor Workers' Compensation Act Special Fund (Fund).
The Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United
States Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care
payments to employees disabled from injuries which occurred on the navigable waters of the United States, or in
adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also extends benefits to
dependents if any injury resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation
cases is paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment.
Appropriated funding for 10(h) is not reflected in the accompanying financial statements.

B.       Basis of Presentation and Accounting

The Federal Accounting Standards Advisory Board (FASAB), an advisory body created under the terms of the
Federal Advisory Council Act (FACA) as amended, considers and recommends standards for Federal accounting. In
discharging its responsibilities, the FASAB develops Statements of Federal Financial Accounting Standards,
Statements of Federal Financial Accounting Concepts, Interpretations and other communications related to Federal
accounting. When the FASAB has developed a proposed concept or standard, it is submitted to the Comptroller
General, the Secretary of the Treasury and the Director of OMB for their review. If within ninety days after its
submission, any one of these officials objects to the proposed concept or standard, then it shall be returned to the
Board for further consideration. If within ninety days, none of these officials objects, then it becomes a final concept
or standard of the Board.

The Council of the American Institute of Certified Public Accountants (AICPA) recognized the FASAB as the body
designated to establish generally accepted accounting principles (GAAP) for Federal governmental entities under
Rule 203, “Accounting Principles,” of the AICPA’s Code of Professional Conduct. The Auditing Standards Board
published Statement of Auditing Standards (SAS) No. 91, Amendment to Statement on Auditing Standards No. 69,
The Meaning of Present Fairly in Conformity With Generally Accepted Accounting Principles in the Independent
Auditor’s Report, which established the following hierarchy of accounting principles for Federal governmental
entities.

•        FASAB Statements and Interpretations, as well as Financial Accounting Standards Board (FASB) and
         Governmental Accounting Standards Board (GASB) pronouncements specifically made applicable to
         Federal governmental entities by FASAB Statements and interpretations;


                                                         III - 1
                                   LONGSHORE AND HARBOR WORKERS'
                                    COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                     For The Year Ended September 30, 2000


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

B.      Basis of Presentation and Accounting - Continued

•       FASAB Technical Bulletins and, if specifically made applicable to Federal governmental entities by the
        AICPA and cleared by FASAB, AICPA Industry Audit and Accounting Guides and AICPA Statements of
        Position;

•       AICPA AcSEC Practice Bulletins if specifically made applicable to Federal governmental entities by the
        AICPA and cleared by FASAB, as well as Technical releases of the Accounting and Auditing Policy
        Committee (AAPC) of the FASAB;

•       Implementation guides published by FASAB staff and practices that are widely recognized and prevalent in
        the Federal government; as well as other accounting literature, in the absence of guidance in this hierarchy,
        depending on its relevance in the circumstances.

These financial statements were prepared in accordance with generally accepted accounting principles.

These financial statements have been prepared from the books and records of the Fund, in accordance with the form
and content requirements of OMB Bulletin 97-01, as amended, and DOL's accounting policies, as summarized in Note
1. These financial statements are not intended to present, and do not present, the full cost of the Longshore and
Harbor Workers’ Compensation Act Program (Longshore Program). In addition to the Fund costs presented in these
statements, the full cost of the Longshore Program would include certain direct costs of ESA in the form of salaries
and expenses for administration of the Longshore Program and allocated costs of ESA and other DOL agencies
incurred in support of the Longshore Program. The full cost of the Longshore Program is included in the
Consolidated Financial Statements of the U.S. Department of Labor. These statements are different from the financial
reports, also prepared by the DOL pursuant to OMB directives, used to monitor the Fund’s use of budgetary
resources.

C.      Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are
          processed by the U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay
current liabilities and finance authorized purchase commitments.

D.      Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance
claims or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these
securities because, in the majority of cases, they are held to maturity.




                                                       III - 2
                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                    NOTES TO THE FINANCIAL STATEMENTS
                                      For The Year Ended September 30, 2000


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is
estimated based on past experience in the collection of the receivables and an analysis of the outstanding balances.
Also included as benefit overpayments receivable are Fund benefit overpayments made to individuals who were
determined ineligible to receive benefits.

F.       Accounts Payable

Accounts payable represent the amount of monies or other resources that are likely to be paid within the next twelve
months by the Fund as the result of a transaction or event that has already occurred.

G.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end.
 The annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has
been deferred.

H.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive donations
from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the public and
interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers.

Assessments are recognized as non-exchange revenue when due. Included in revenues are recoveries of amounts
reassessed to carriers related to prior years. These reassessments primarily result from audits of reported carrier data.
 Recoveries amounted to $51,276 during the fiscal year ended September 30, 2000.

The Fund also receives interest on Fund investments and on Federal funds in the possession of non-Federal entities.




                                                         III - 3
                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                     For The Year Ended September 30, 2000


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with U.S. Treasury at September 30, 2000 consisted of the following:

                                                                           Entity Assets

                                                     Obligated                             Unobligated
                                                                               Available         Restricted              Total
Trust funds                                           $       -                $ 450,598          $ -                  $ 450,598


Funds with the U.S. Treasury at September 30, 2000 includes $62,544 which is being held as security by authority of
Section 32 of the Longshore and Harbor Workers' Compensation Act. These funds relate to the default of self-
insured employers and are available for payment of compensation and medical benefits to covered employees of the
defaulted companies.


NOTE 3 - INVESTMENTS

Investments at September 30, 2000 consisted of the following:

                                             Face                                      Net                    Market
                                             Value                  Discount           Value                  Value

Intragovernmental securities
  Marketable                              $ 59,144,000              $ (765,022)      $ 58,378,978        $ 58,378,978

Investments of $912,871 for 2000 are being held as security by authority of Section 32 of the Longshore and Harbor
Workers' Compensation Act. These investments are available for payment of compensation and medical benefits to
covered employees of the defaulted companies. Investments at September 30, 2000 consist of short-term U.S.
Treasury Bills and are stated at amortized cost which approximates market. Investments at September 30, 2000, bear
interest rates varying from 5.84% to 6.09%. Interest rates on securities bought and sold during the fiscal year ranged
from 4.53% to 6.09%.




                                                          III - 4
                                      LONGSHORE AND HARBOR WORKERS'
                                       COMPENSATION ACT SPECIAL FUND

                                     NOTES TO THE FINANCIAL STATEMENTS
                                       For The Year Ended September 30, 2000


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2000 consisted of the following:

                                                                                                             2000
Entity assets
  Benefit overpayments                                                                                  $ 1,080,782
  Assessments receivable                                                                                    310,832
  Less: allowance for doubtful accounts                                                                    (164,837)

    Total accounts receivable, net                                                                          $ 1,226,777

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts
receivable from overpayments to claimants arise primarily from amended compensation orders and corrections of
payment computations. These receivables are being primarily recovered by partial and total withholding of benefit
payments.

Changes in the allowance for doubtful accounts during 2000 consisted of the following:


                                       Allowance             Write         Revenue                   Allowance
                                          9-30-99             Offs       Adjustment       Bad Debt      9-30-00
Entity assets
  Benefit overpayments                 $ (15,167)       $        -         $ (13,093)            -   $ (28,260)
  Asses sment receivable                (600,000)          458,343             5,080             -     (136,577)
                                       $(615,167)        $ 458,343         $ (8,013)             -   $ (164,837)


NOTE 5 - OTHER LIABILITIES

Other liabilities at September 30, 2000 consisted of the following current liabilities:

                                                                                                              2000
Other liabilities
  Assessment overpayments by carriers                                                                           963,686
  Defaulted employer liability
    Held in investments                                                                                         912,871
    Held in cash                                                                                                 62,544
                                                                                                                975,415

  Total other liabilities                                                                               $     1,939,101

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.




                                                            III - 5
                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                     For The Year Ended September 30, 2000


NOTE 5 - OTHER LIABILITIES - Continued

Defaulted employer liability relates to funds and investments held by the Longshore Special Fund which are being
held as security by authority of Section 32 of the Act. These funds and investments are available for compensation
and medical benefits to covered employees of the defaulted companies. Management estimates that these funds and
investments held will be sufficient to cover the future benefits associated with the covered employees.


NOTE 6 - RELATED PARTY TRANSACTIONS

The Fund reimburses the Office of Workers' Compensation Programs (OWCP) (a related entity within the
Employment Standards Administration) for rehabilitation services provided to eligible claimants and certain direct
expenses associated with administrative support of the Fund. Amounts paid to the OWCP were $1,740,000 in 2000.


NOTE 7 - RECONCILIATION TO THE BUDGET

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of
Budgetary Resources to amounts included in the Budget of the United States Government for the year ended
September 30, 2000 is shown below:

                                                              Budgetary        Obligations
(Dollars in Millions)                                         Resources         Incurred             Outlays

Statement of Budgetary Resources                                  $   188        $     131            $   131

Budget of the United States Government                            $   188        $     131            $   131


NOTE 8 - CONTINGENCIES AND COMMITMENTS

In the opinion of the management of the Fund and its legal counsel, there is no pending or threatened litigation which
has a reasonable possibility of materially affecting the financial position or results of operations of the Fund.

Section 39(c)(2) of the Longshore and Harbor Workers' Compensation Act authorizes vocational rehabilitation of
disabled employees and Section 8(g) provides additional compensation to disabled employees while undergoing
rehabilitation training. Rehabilitation services paid from the Fund are mainly provided by private counselors and
private training facilities. The rehabilitation agreements are funded by future assessments from the insurance carriers
and self-insured employers. The amount of the outstanding rehabilitation agreements at September 30, 2000 is
$5,846,397.




                                                        III - 6
